                                                                                                                          ".



                                    u.s. Department of Education 

                                      Office of Inspector General 

                                       501 I Street, Suite 9-200 

                                     Sacramento, California 95814 

                              Phone (916) 930-2388 • Fax (916) 930-2390 





                                                     July 28, 2003


MEMORANDUM

TO: 	                         Ronald Tomalis
                              Acting Assistant Secretary
                              Office of Elementary and Secondary Education
                              Lead Action Official

                              Nina Shokraii Rees
                              Deputy Under Secretary
                              Office of Innovation and Improvement

FROM: 	                       GloriaPilotti       ~~
                              Regional Inspector General for Audit

SUBJECT: 	                    FINAL AUDIT REPORT
                              Charter Schools Access to Title I Funds in the State ofNew York
                              Control Number ED-OIG/A09-D0014

You have been designated as the action officials responsible for the resolution of the
findings and recommendations in the attached final report. We have also provided a copy
to the auditee and to your Audit Liaison Officers.

The Office of Inspector General is required to review and approve your proposed
Program Determination Letter (PDL) and the Audit Clearance Document (ACD) before
the PDL is forwarded to the auditee. Please provide these documents for review,
electronically if you wish or by mail.

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General is required to report to Congress twice a year on the number of audits
unresolved. In addition, any report unresolved after 180 days from the date of issuance
will be shown as overdue in our reports to Congress.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available, if requested, to members of the press and



        Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Ronald Tomalis and Nina Shokraii Rees - Page 2


general public to the extent information contained therein is not subject to exemptions in
the Act.

If you have any questions, please contact me at (916) 930-2399 or gloria.pilotti@ed.gov.

Attachment

Electronic cc: Jacqueline Jackson, (A) Director, Student Achievement and School
                  Accountability, OESE
               Charles Laster, Group Leader, Student Achievement and School
                  Accountability, OESE
               Delores Warner, Audit Liaison Officer, OESE
               John Fiegel, Director, Parental Options and Information, OIl
               Dean Kern, Parental Options and Information, OIl
               Liza Araujo, Audit Liaison Officer, OIl
                                         U.S. Department of Education 

                                                 Office of Inspector General 


                                             501 I Street, Suite 9-200 

                                          Sacramento, California 95814 

                                    Phone (916) 930-2388 • Fax (916) 930-2390



                                                           July 28, 2003


                                                                                                             ED-OIG/A09-D0014



Richard Mills
Commissioner
New York State Education Department
88 Washington Avenue
Albany, New York 12234

Dear Commissioner Mills:

This Final Audit Report, entitled Charter Schools Access to Title I Funds in the State of New
York, presents the results of our audit of the New York State Education Department (NYSED)
and three local educational agencies (LEAs) within the State. The purpose of the audit was to
determine whether NYSED and the LEAs (1) provided new or expanding charter schools with
timely and meaningful information about the Elementary and Secondary Education Act of 1965
(ESEA), Title I funding for which these schools might have been eligible, and (2) had
management controls that ensured charter schools, including new or expanding schools, were
allocated the proportionate amount of Title I funds for which these schools were eligible. Our
review covered school years 2000-2001 and 2001-2002.

We provided NYSED with a draft of this report. NYSED concurred with the finding and
recommendations presented in this final report. NYSED’s comments are summarized in the
body of the report and included in their entirety as an attachment.


                                                     BACKGROUND
The ESEA, Title I, Part A provides financial assistance to improve the teaching and learning of
low-achieving children in high-poverty schools. Section 5206 of the ESEA, as amended by the
No Child Left Behind Act of 2001 (NCLB), requires the Department and states to take measures
to ensure that every charter school receives the Federal funds, including Title I funds, for which
it is eligible no later than five months after the school first opens or expands enrollment.1



1
    This provision was originally enacted by the Charter Schools Expansion Act of 1998.
              Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
ED-OIG/A09-D0014                                                                          Page 2 of 17


The New York State Legislature enacted the State charter school law in 1998, and the State’s
first five charter schools opened in September 1999. In school year 2001-2002, 32 charter
schools were located within the boundaries of 10 LEAs. Most charter schools were located in
the State’s three largest LEAs—the New York City Department of Education, the Buffalo City
School District, and the Rochester City School District.

                                                    Number of Public Schools
                                          School Year 2000-2001   School Year 2001-2002
        LEA
                                                      Charter                   Charter
                                            Total                   Total
                                                      Schools                   Schools
        New York City
                                            1,208        12         1,220          17
        Department of Education
        Buffalo City School District         80           2           82           4

        Rochester City School District       56           3           57           4



                                         AUDIT RESULTS
In the four years that charter schools have existed in New York, NYSED has taken steps to
provide timely and meaningful information and improve the State process for allocating Title I
funds to charter schools. The State’s LEAs were responsible for allocating Title I funds to
charter schools for school year 2000-2001. We found that, while all three LEAs we reviewed
allocated Title I funds to eligible charter schools for the school year, one LEA did not allocate
the proportionate amount of funds to one charter school, and none of the LEAs provided new or
expanding charter schools with timely access to the funds. Beginning with school year
2001-2002, NYSED treated charter schools as LEAs for ESEA programs, including Title I.
Thus, NYSED, rather than the LEAs, became responsible for allocating Title I funds to charter
schools. We found that NYSED did not allocate a proportionate amount of Title I funds to 8 of
the State’s 30 eligible charter schools, and did not provide 13 of 23 new or expanding charter
schools with timely access to the funds. NYSED met the regulations and non-regulatory
guidance on providing timely and meaningful information to charter schools, but we found that
charter schools could benefit from additional information on the ESEA consolidated application
process.


FINDING – Charter Schools Did Not Receive a Proportionate Amount of Title I Funds or
          Have Timely Access to the Funds

The Department informed states and LEAs that charter schools are to be treated the same as
other public schools or LEAs in nonregulatory guidance entitled, Allocations to Public Charter
Schools Under Title I, Part A of the Elementary and Secondary Education Act, issued
March 1998.

       [W]hen allocating Title I, Part A funds, [State educational agencies (SEAs)] and
       LEAs must treat public charter schools in a manner consistent with the Title I
       statute and regulations and take all reasonable steps to ensure that public charter
       schools receive their full allocations. In a State that considers public charter
ED-OIG/A09-D0014                                                                          Page 3 of 17


       schools to be LEAs, the SEA must treat those public charter schools like other
       LEAs in the State when determining Title I LEA eligibility and allocations. . . . If
       a State considers public charter schools to be public schools within an LEA, an
       LEA must treat its public charter schools like other public schools in determining
       eligibility and within-district allocations.

The regulations at 34 C.F.R. § § 76.792(a) and 76.793(a) implemented § 5206 of the ESEA
requiring states and LEAs to ensure that eligible new or expanding charter schools receive a
proportionate amount of Title I funds and that these charter schools have access to the funds
within five months of their opening or expansion. The regulations state—
       For each eligible charter school LEA that opens or significantly expands its
       enrollment on or before November 1 of an academic year, the SEA must
       implement procedures that ensure that the charter school LEA receives the
       proportionate amount of funds for which the charter school LEA is eligible under
       each covered program.
       34 C.F.R. § 76.792(a)

       For each eligible charter school LEA that opens or significantly expands its
       enrollment on or before November 1 of an academic year, the SEA must allocate
       funds to the charter school LEA within five months of the date the charter school
       LEA opens or significantly expands its enrollment . . .
       34 C.F.R. § 76.793(a)

The regulation at 34 C.F.R. § 76.799 requires LEAs to also follow the above regulations when
the LEAs are responsible for allocating Title I funds to charter schools.

Rochester City School District Did Not Allocate the
Correct Amount of Title I Funds to One Charter School
For School Year 2000-2001

The Rochester City School District did not allocate a proportionate amount of Title I funds to
one of three eligible charter schools within the district boundaries. Based on the District’s Title I
allocation process, which was used for all public schools, including charter schools, Eugenio
Maria de Hostos Charter School should have received $175 per eligible student. Due to a
clerical error, the school only received $100 per eligible student. As a result, the school received
$8,175 less than the amount that it was eligible to receive for school year 2000-2001.

All Three LEAs Did Not Provide New or Expanding
Charter Schools With Timely Access to Title I Funds
For School Year 2000-2001

The three LEAs did not allocate Title I funds to new or expanding charter schools within five
months of their September 2000 opening or expansion. The eligible charter schools should have
had access to the Title I funds by February 2001.
ED-OIG/A09-D0014                                                                       Page 4 of 17


                                       2000-2001 Title I Allocations
                                             Number of Eligible Month Funds Received by
                     LEA
                                              Charter Schools        Charter Schools
        New York City
                                                    2                  March 2002
        Department of Education
        Buffalo City School District                2                  April 2001

        Rochester City School District              3                   July 2001


LEA staff explanations for the delays included staff turnover, school poverty data required
review by District staff, and late notice from NYSED instructing LEAs to allocate Title I funds
to charter schools.

NYSED Did Not Allocate a Proportionate Amount of
Title I Funds to 8 of the 30 Eligible Charter Schools
For School Year 2001-2002

In school year 2001-2002, NYSED was responsible for allocating Title I funds to the charter
schools. Of the $803 million in Title I funds NYSED allocated to LEAs and charter schools in
school year 2001-2002, $3 million was allocated to 29 charter schools. We found that NYSED
did not assess the reliability of charter school-provided data used to determine eligibility and
allocations. We also found errors in NYSED’s calculation of charter school allocations.

To begin the Title I allocation process, NYSED’s Title I program office provided each charter
school with a form for reporting Free and Reduced Lunch (FRL) program and school enrollment
data for October 2001. Title I program staff manually entered the information written on the
returned forms into a spreadsheet. Using a printout of the spreadsheet, NYSED’s Deputy Chief
Information Officer manually entered the information into a database. The database’s structure
and formulas followed examples provided in the Department’s non-regulatory guidance,
Procedures for Adjusting Basic and Concentration Grant Allocations Determined by the
U.S. Department of Education, issued June 1999. The formulas in the database determined each
charter school’s eligibility and allocation based on the entered data. The allocation amounts
were also used to reduce allocations calculated for the LEAs in which charter school students
lived (resident LEAs).

Reliability of Charter School-Provided Data. We found that NYSED Title I program staff did
not assess the reliability of the FRL and school enrollment information submitted by the charter
schools. Therefore, NYSED had no assurance that the allocations were based on complete and
accurate information.

NYSED’s Nutrition Office routinely collects FRL and school enrollment information on schools,
including charter schools, that participate in the FRL program. The NYSED Title I program
staff could compare the charter school-reported information with the information collected by the
Nutrition Office to identify significant variances that might warrant further review.
ED-OIG/A09-D0014                                                                         Page 5 of 17


Errors in Calculation of Charter School Allocations. We found that, when entering FRL data
into the spreadsheet, Title I program staff did not include the full FRL count for one charter
school. This recording error resulted in Tapestry Charter School being designated ineligible
when it was actually eligible for over $10,000 in Title I funds. We found multiple errors in the
database used to calculate charter school allocations. The errors included incorrect or missing
formulas, incorrect cell references, and data entry errors. The database errors resulted in seven
charter schools, and the respective resident LEAs, receiving disproportionate amounts of Title I
funds.


                                  2001-2002 Title I Allocation Errors
                                                                                Under or Over
         School Name                             Resident LEAs               Proportionate Amount
                                                                              Under        Over
Tapestry Charter School             Buffalo City School District               $10,997
Charter School for Applied
                                    Depew Union Free School District              157
Technologies
                                    Freeport Union Free School District           396
Roosevelt Children’s Academy
                                    Uniondale Union Free School District           22
Charter School
                                    East Meadow Union Free School District                    $368
South Buffalo Charter School        Buffalo City School District                             25,265
Merrick Academy                     Queens County                                            22,891
Central New York Charter School
                                    North Syracuse Central School District                    1,444
for Math and Science
Charter School of Science and
                                    Greece Central School District                            1,172
Technology
New Covenant Charter School         Troy City School District                                       9
Total                                                                          $11,572      $51,149


NYSED did not have staff independently review the database formulas or cell references. Also,
there were no independent reviews of the accuracy of data manually entered from the charter
schools’ forms to the spreadsheet and from the spreadsheet to the database. The absence of
independent reviews increased the likelihood of errors in eligibility decisions and allocation
amounts. Additionally, NYSED had no written procedures for determining Title I eligibility and
allocation amounts and the Deputy Chief Information Officer was the only NYSED staff person
familiar with the database and the process.

Charter school representatives informed us that, at present, they do not sufficiently understand
the Title I allocation process to confirm the accuracy of their schools’ allocations. By providing
each charter school with the completed worksheet used by NYSED to derive the individual
school’s allocation amount, NYSED would improve charter schools’ understanding of the Title I
allocation process. Also, charter schools could provide an independent confirmation of the
calculations if NYSED provided each charter school with the additional details.
ED-OIG/A09-D0014                                                                          Page 6 of 17


NYSED Did Not Provide 13 New or Expanding Charter Schools
With Access to Title I Funds For School Year 2001-2002
Within the Required Five-Month Period

NYSED awarded Title I funds to 23 new or expanding charter schools in school year 2001-2002.
The eligible new or expanding charter schools should have had access to the Title I funds by
February 2002, which was five months after their September 2001 opening or expansion.
Thirteen of the 23 charter schools did not receive access to their Title I funds by February 2002.
One of the 13 charter schools could not access their funds until June 2002. The delay in
providing charter schools access to Title I funds was due to NYSED’s misapplication of the five-
month requirement and the timing of ESEA consolidated application activities.

NYSED Misapplication of the Five-Month Requirement. NYSED Title I program staff claimed
that the State met the five-month requirement by notifying new or expanding charter schools,
within the five-month period, of the preliminary allocation of Title I funds for which the schools
were eligible to apply. However, in the preamble to the 1999 final regulations, which
implemented the regulations at 34 C.F.R. § § 76.792(a) and 76.793(a), the Secretary responded
to a comment on the five-month timeframe, stating—
         [W]hen awarding subgrants under the covered programs, SEAs and LEAs are
         generally required only to ensure that the appropriate amount of grant funds are
         made available for draw down by the subgrant recipient—in this case, the charter
         school. The subgrant recipient, in turn, draws down funds on an as needed basis.
         64 FR 71970
Thus, for new or expanding charter schools, SEAs and LEAs were required to provide eligible
charter schools with the ability to draw down the allocated Title I funds within five months of the
schools’ opening or expansion. In the State of New York, a charter school cannot draw down the
allocated Federal funds until the school submits an acceptable application and NYSED issues an
award letter to the school. Therefore, notifying new or expanding charter schools of their
preliminary allocations did not satisfy the five-month requirement.2

Timing of ESEA Consolidated Application Activities. School year 2001-2002 was the first year
that charter schools were required to submit an ESEA consolidated application to NYSED. The
timeframes, within which consolidated application activities were completed, delayed eligible
charter schools’ access to Title I funds.
The consolidated application process began in June 2001 when NYSED provided the application
forms and instructions to LEAs and charter schools. LEAs and charter schools were to base their
applications on their preliminary Title I allocations. The LEAs and charter schools submitted
their ESEA consolidated applications to NYSED. NYSED reviewed and approved the
applications and issued award letters. We found that—
       NYSED sent preliminary allocation notices to LEAs and charter schools in October 2001.


2
 We issued an Action Memo (State and Local No. 03-01) regarding the need for the Department to ensure
states understand the timeframe to provide new or expanding charter schools with access to Federal
program funds.
ED-OIG/A09-D0014	                                                                         Page 7 of 17


       The charter schools submitted their applications late. In the October 2001 notice, NYSED
        instructed charter schools to submit the applications within two weeks (about
        mid-November). For 12 of the 13 charter schools that received late access to their Title I
        funds, we were able to identify the date that the schools submitted their applications. Five
        of these schools did not submit their applications by mid-November. The applications for
        these 5 schools were an average of 3 months late, and ranged from 2 to 6 months late.

       Charter schools’ applications took time to review. For 7 of the 13 charter schools that
        received access to their Title I funds late, we were able to identify the date that NYSED’s
        Title I program office completed its review of the schools’ applications. For these
        7 schools, NYSED took an average of 2 months to review and approve the applications.
        The timeframes ranged from 6 days to 7 months.

NYSED has already taken corrective action to provide charter schools with more timely
information on their preliminary allocations. For school year 2002-2003, NYSED notified all
charter schools, including the schools identified as new or expanding schools, of their
preliminary allocations in June 2002, which was at least three months earlier than in the previous
school year.

NYSED Title I program staff informed us that charter schools were generally submitting
acceptable consolidated applications more timely for school year 2002-2003. Program staff also
said they would continue to provide individual attention to charter schools submitting their first
applications. In addition to the steps already taken, NYSED could apply lessons learned from
charter schools’ experiences to benefit future new or expanding charter schools that apply for
Title I funds. For example, NYSED could tailor information to new or expanding charter
schools’ needs and organizational structures, or seek feedback from charter schools about the
usefulness of the provided information or what other assistance might be of help.

Recommendations

The Assistant Secretary for Elementary and Secondary Education should require NYSED to—

1.1 	    Ensure that Eugenio Maria de Hostos Charter School receives the additional $8,175 in
         Title I funds that it was eligible to receive for school year 2000-2001.

1.2 	    Ensure that the three charter schools receive the additional $11,572 in Title I funds for
         which the schools were eligible in school year 2001-2002, and the six LEAs, for which
         allocations were improperly reduced, receive the additional $51,149 in Title I funds for
         school year 2001-2002.

1.3 	    Perform reliability assessments of FRL and school enrollment information submitted by
         charter schools to ensure data are accurate and complete.

1.4 	    Develop written procedures for creating and updating the database used to determine
         charter schools’ eligibility and allocations for Title I. These procedures should include
         independent reviews of database formulas, cell references, and entered data.
ED-OIG/A09-D0014	                                                                      Page 8 of 17


1.5 	   Modify its procedures, as needed, to ensure that eligible new or expanding charter
        schools can draw down allocated Title I funds within five months of their opening or
        expansion.

1.6 	   Identify additional information needed by new or expanding charter schools to facilitate
        charter schools’ submission of ESEA consolidated applications and NYSED’s review and
        approval of the applications.

NYSED Comments and OIG Response

NYSED concurred with the finding and recommendations. NYSED stated that it has taken steps
to ensure that charter schools receive the proportionate amount of Title I funds and have timely
access to the funds. NYSED will contact Rochester City School District to resolve the matter
involving Eugenio Maria de Hostos Charter School and is taking the necessary steps to ensure
that the Title I funds owed to the charter schools and LEAs are paid. Additionally, NYSED will
take the necessary steps to perform reliability assessments of charter school-submitted data by
using FRL claims data. NYSED is also considering recommendations from an internal work
group that had reviewed the State’s allocation process. Written procedures for the allocation
process are to be a part of the revised process. Lastly, NYSED took steps to assist charter
schools in submitting more timely, complete, and substantially approvable consolidated
applications to ensure timely payments for school year 2003-2004. NYSED will review these
procedures in the future, if delays occur.

In its comments, NYSED advised us of a charter school that should not have been included in the
table titled 2001-2002 Title I Allocation Errors, and we removed the charter school from the
table. NYSED also provided comments and suggested revisions to the narrative portion of the
report. We generally incorporated the suggested revisions, except we did not change the name
used for the New York City Department of Education since that is the current name of the
District. In response to NYSED’s comment about our suggested use of Nutrition Office data, we
removed the suggestion. We also clarified in the report the circumstances of the error affecting
Tapestry Charter School. NYSED stated that our suggestion to provide each charter school with
details on the formulas and data used to derive the school’s allocation amount is a practical
impossibility. We have modified the report to clarify that our suggestion was to only provide
each charter school with the completed worksheet used by NYSED to derive the individual
school’s allocation amount.


                                    OTHER MATTER
In the State of New York, charter schools are considered LEAs for certain Federal programs and
schools within a school district for other Federal programs. This arrangement may become
problematic when implementing NCLB accountability requirements.

In a letter dated May 31, 2001, NYSED informed charter school principals that charter schools
would continue to be considered schools within a school district for purposes of the Individuals
with Disabilities Education Act (IDEA) program, but, beginning with school year 2001-2002,
charter schools would be considered LEAs for funding under ESEA programs. The letter
states—
ED-OIG/A09-D0014                                                                        Page 9 of 17


       New York’s Charter School Law provides that federal funds for services for
       students with disabilities flow from the school district of residence to charter
       schools, but is silent about LEA status for other federal programs. Based on the
       provisions of the Charter School Law that establish charter schools as
       independent, autonomous public schools and the applicable federal LEA
       definition, [the Commissioner] has determined that, starting with the 2001-2002
       school year, charter schools will be deemed to be LEAs for all federal funding
       programs under the [ESEA]. For purposes of the [IDEA], however, the school
       district of residence serves as the LEA, with charter schools treated as schools of
       the school district. Charter school LEA status for any other non-ESEA program
       or any new ESEA program will be determined on a case-by-case basis, though
       charter schools will be treated as LEAs unless the federal LEA definition
       applicable to the particular program indicates that New York charter schools
       should be treated as schools of the school district.

If a charter school is identified for corrective action, NYSED may experience problems
identifying the entity responsible for the corrective action due to separate designations given to
charter schools (i.e., LEA versus school within a school district). The ESEA, as amended by the
NCLB, specifies actions that must take place when an LEA or school fails to make adequate
yearly progress. For example, ESEA § 1116(e) states that an LEA, which has a school that failed
to make adequate yearly progress by the end of the first year the school was identified for
improvement, must arrange for supplementary educational services for eligible children through
an approved provider. Current New York State regulations specify that school districts and
charter school LEAs that receive Title I funds may be identified for improvement or corrective
action, but NYSED may need to do more to clarify responsibilities. For example, when a charter
school is identified for improvement because the students with disabilities did not make adequate
yearly progress, is the charter school responsible for the supplementary services, or is the
resident school district responsible? NYSED’s charter schools program manager informed us
that NYSED is in the process of developing additional regulations and information addressing
the NCLB and charter schools.

We encourage NYSED to fully address and communicate NCLB requirements for school
districts and charter schools, including which entity will be responsible for required corrective
action. We also suggest that NYSED seek technical assistance from the Department, when
warranted. On March 24, 2003, the Department issued draft nonregulatory guidance, The Impact
of the New Title I Requirement on Charter Schools, addressing the NCLB accountability
requirements, Title I public school choice provisions, supplemental education services
provisions, and corrective action.


                 OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives were to determine whether NYSED and selected LEAs within the State
(1) provided new or expanding charter schools with timely and meaningful information about the
ESEA, Title I and IDEA funding for which these schools might have been eligible and (2) had
management controls that ensured charter schools, including new or expanding schools, were
allocated the proportionate amount of Title I and IDEA funds for which these schools were
ED-OIG/A09-D0014                                                                               Page 10 of 17


eligible.3 This report presents the results of our review covering the Title I funds. The results of
our review covering IDEA funds are presented in a separate report issued under Control Number
ED-OIG/A09C0025. Our review covered Title I allocations for school years 2000-2001 and
2001-2002.

To address these objectives, we interviewed State officials and staff responsible for
implementing the Title I and charter schools programs in New York. We evaluated the
information that the State provided to charter schools about accessing Title I funds to determine
whether the information was timely and meaningful. In addition, we assessed NYSED’s
procedures to determine whether management controls ensured that charter schools received the
proportionate amount of Title I funds for which these schools were eligible. We also interviewed
administrators at 31 charter schools about their experiences in accessing Title I funds, including
the timeliness and meaningfulness of provided information.4

To evaluate LEA procedures, we selected the three LEAs that had more than one charter school
located within their boundaries. These LEAs were the New York City Department of Education,
Buffalo City School District, and Rochester City School District. At each LEA, we reviewed
procedures and interviewed staff responsible for providing information and allocating Title I
funds to charter schools in school year 2000-2001. To determine the accuracy and timeliness of
charter school allocations, we reviewed the LEA’s Title I allocation process and decisions. Since
our review was limited to the three LEAs, we did not project our findings to the universe of
LEAs across the State.

We assessed the reliability of the database that NYSED used to determine Title I allocations for
school year 2001-2002 by verifying data entry to source documents, checking formulas,
re-computing the allocations, and verifying reporting of allocations to charter schools. We found
multiple errors in the database which led us to believe we could not rely on the information in the
database. We reviewed all formulas and data entry and created our own version of the database
with corrected formulas and information.

We performed our fieldwork at NYSED and LEA offices in Albany, New York City, Buffalo,
and Rochester, New York, from September 2002 to January 2003. We held an exit briefing with
NYSED officials on March 5, 2003. Our audit was performed in accordance with generally
accepted government auditing standards appropriate to the scope of the review described.




3
 Under Section 611 of Part B of the IDEA, the Department provides grants to states for special education
and related services for school-aged children with disabilities.
4
    One of the 32 schools operating in school year 2001-2002 was no longer open at the time of our audit.
ED-OIG/A09-D0014                                                                        Page 11 of 17


                 STATEMENT ON MANAGEMENT CONTROLS 

We assessed the system of management controls, policies, procedures, and practices applicable
to NYSED’s and the three selected LEAs’ processes for allocating Title I funds to charter
schools. We performed our assessment to determine whether the processes used by NYSED and
the three LEAs provided a reasonable level of assurance that charter schools received needed
information and were allocated the proportionate amount of Title I funds for which these schools
were eligible.

For the purpose of this report, we assessed and classified significant controls into the following
categories—

      Dissemination of information
      Allocation of Title I funds

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, we identified NYSED and LEA management control weaknesses that adversely
affected charter schools’ receipt of Title I funds. NYSED’s weaknesses included the lack of
review of the data in the database, untimely access to Title I funds, and misinterpretation of the
five-month requirement. LEA weaknesses included disproportionate and untimely allocation of
Title I funds in school year 2000-2001.


                            ADMINISTRATIVE MATTERS
Statements that managerial practices need improvement, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Departmental official,
who will consider them before taking final action on this audit—

                              Ronald Tomalis
                              Acting Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              Federal Building No. 6
                              400 Maryland Avenue, SW
                              Washington, DC 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.
                                                                                'un   'It                   '!!'pm"




ED-OIG/A09-D0014                                                                            Page 12 of 17


In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued to the
Department's grantees and contractors are made available, if requested, to members of the press
and general public to the extent information contained therein is not subject to exemptions under
the Act.




                                            ~~
                                             Gloria Pilotti
                                             Regional Inspector General for Audit


Attachment

Electronic cc: Jonathan Gyurko, New York City Department of Education
               Marion Cafiedo, Buffalo City School District
               Manuel J. Rivera, Rochester City School District




                                 L&tJ
ED-OIG/A09-D0014                                          Page 13 of 17





                              ATTACHMENT 


                   NYSED COMMENTS ON THE DRAFT REPORT 

                         THE STATE EDUCATION DEPARTMENT I THE UNIVERSITY OF THE STATE OF NEW YORK I ALBANY, NY 12234

                         CHIEF OPERATING OFFICER 

                         Tel. (518) 474-2547 . 

                         Fax (518) 473-2827 

                         E-mail: rcate@mail.nysed.gov 





                                                                        June 20, 2003




     Ms. Gloria Pilotti 

     Regional Inspector General for Audit 

     U.S. Department of Education 

     Office ofthe Inspector General 

     501 I Street, Suite 9-200 

     Sacramento, California 95814 


     Control number: ED-OIG/A09-D0014

     Dear Ms. Pilotti:

             I am responding to your letter of May 8, 2003 regarding the draft audit report entitled
     Charfer Schools Access to Title I Funds in the State o/New York. Our comments on the findings and
     the recommendations are listed below. Comments and suggested revisions to the narrative portion of
     your draft report are also endosed.

     Finding
            Charter Schools Did Not Receive a Proportionate Amount of Title I Funds or Have Timely
     Access to the Funds

     Finding, Subpart 1
            Rochester City School District Did Not Allocate the Correct Amount of Title I Funds to One
     Charter School For School Year 2000-2001

     Finding, Subpart 2
              All Three LEAs Did Not Provide New or Expanding Charter Schools With Timely Access to
     Title I Funds For School Year 2000-2001

     We agree with the overall finding and subparts 1 and 2.

     Finding, Subpart 3
           NYSED Did Not Allocate a Proportionate Amount of Title I Funds to 9 of the 30 Eligible
     Charter Schools For School Year 2001-2002  .

     We disagree, in part, with subpart 3.




_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _..-.1
        The chart on page 5 ofthe draft audit report contains an error. Riverhead Charter School's
underpayment should be deleted from the chart. In replicating the NYSED spreadsheet, the OIG
auditor removed a formula and inserted a number in its place.

Finding, Subpart 4
       NYSED Did Not Provide 13 New or Expanding Charter Schools With Access to Title I
Funds For School Year 2001-2002 Within the Required Five-Month Period

We agree with the overall finding and subpart 4.
       The Department has taken the necessary steps to ensure that Charter Schools receive the
proportionate amount of Title I funds and have timely access to the funds.

Recommendation 1.1
         Ensure that Eugenio (sic) Maria de Hostos Charter School receives the additional $8,175 in
Title I funds that it was eligible to receive for school year 2000-2001.

We agree with the recommendation.
      The Department will contact the Rochester City School District to resolve this matter.

Recommendation 1.2
       Ensure that the four charter schools receive the additional $11,925 in Title I funds for which
the schools were eligible in school year 2001-2002, and the six LEAs, for which allocations were
improperly reduced, receive the additional $51,149 in Title I funds for school year 2001-2002.

We agree with the recommendation.
        The Department is taking the necessary steps to ensure that the Title I funds owed to these
charter schools and LEAs are paid.

Recommendation 1.3
        Perform reliability assessments ofFRL and school enrollment information submitted by
charter schools to ensure data are accurate and complete.

We agree with the recommendation.
       The Department will take the necessary steps to perform this assessment by using FRL
claims data.

Recommendation 1.4
       Develop written procedures for creating and updating the database used to determine charter
schools' eligibility and allocations for Title I. These procedures should include independent reviews
of database formulas, cell references, and entered data.

We agree with the recommendation.
       The Department is reviewing recommendations from a NCLB work group that was charged
with reviewing the allocation process for all of the NCLB titled programs in the Department's local
consolidated application. Written procedures for the allocation process are part of the revised
process.
  Recommendation 1.5
         Modify its procedures, as needed, to ensure that eligible new or expanding charter schools 

  can draw down allocated Title I funds within five months of their opening or expansion. 


 We agree with this recommendation. 

         The Department invited the Charter Schools to attend a general workshop on June 11, 2003 

 that provided technical assistance in completing the Consolidated Application for 2003-04. 

 Additionally, Charter School LEAs were provided with technical assistance sessions in New York 

 City on June 19,2003. Another session is scheduled in Albany on June 30 to further assist them 

 with questions they have in completing the Consolidated Application. 


        Beyond these sessions, the Charter Schools may also call or e-mail the Title I office to obtain 

 additional assistance in preparing their consolidated application for 2003-04. 


        We believe that these steps will assist the Charter Schools in submitting a more timely,
 complete and substantially approvable application to ensure timely payments. We will review these
 procedures in the future if delays occur.

 Recommendation 1.6
         Identify additional information needed by new or expanding charter schools to facilitate
 charter schools' submission of ESEA consolidated applications and NYSED's review and approval
 ofthe applications.

 We agree with the recommendation.
       See response to Recommendation 1.5.

        If you have any questions, contact Ira Certner at (518) 486- 2203.

                                                     Sincerely,

                                                     ~p~
                                                     Richard H. Cate


 Enclosure

 cc:    Ira Certner




L _____________
 Comments' and suggested revisions to the narrative portion of the draft audit report entitled:
                 Charter Schools Access to Title I Funds in the State ofNew York



Page 1, paragraph 3, line 2: ..... the State's first three charter schools opened in September 1999.
This should say five charter schools.

Page 1, paragraph 3, line 4: ..... the New York City Department of Education was not called by
that name during the timeframe of the audit report.

Page 2, paragraph 1, line 1: In the three years that charter schools have existed in New York ...
September 99 to May 03 is four years.

Pages 4-5, last paragraph continuing on the next page: The conclusion that NYSEDcouid use
the information collected by the Nutrition Office for Title I eligibility and allocation determinations
is not valid. For Title I purposes, Charter Schools must provide FRLP data for each "sending"
school district in order to compute the count and ''worth'' of poverty eligibles. Child Nutrition data
could not provide the necessary detail.

Page 5, paragraph 1, line 3, ''These errors resulted in one charter school, Tapestry Charter School,"
being designated ineligible when it was actually eligible for over $10,000 in Title I funds," is not
correct. This is not a database error, but a reporting error.
     --
Page 5, paragraph 1, line 4: Eight additional charter schools ...The number eight needs to be
revised to seven as the number of additional charter schools, and the respective resident LEAs, that
received disproportionate amounts of Title I funds.

Page 6, paragraph 1: The suggestion that the NYSED provide each charter school with details on
the formulas and data used to derive the school's allocation amount is a practical impossibility. In
order to calculate statewide final allocations, data from every school district must be used to account
for set-a-sides and hold-harmless.

Page 7, recommendation 1.-2: This recommendation would have to be revised to reflect the
deletion of Riverhead Charter School.




                                                                                        #44   it;;A
